                                                       SENSITIVE BUT UNCLASSIFIED



    A
                                                 United States Department of State
                                              and the Broadcasting Board of Governors
                                                     Office of Inspector General
Office of Inspector General


                                                   Office of Inspections

                                                              Inspection of
                                          the Bureau of Consular Affairs,
                                     Directorate of Overseas Citizens Services,
                                             Office of Children’s Issues,
                               Office of Policy Review and Interagency Liaison, and
                              the Planning, Programs, and Systems Liaison Division

                                                Report Number ISP-I-12-21, May 2012




                                                                   Important Notice

                                 This report is intended solely for the official use of the Department of State or the
                                 Broadcasting Board of Governors, or any agency or organization receiving a copy
                                 directly from the Office of Inspector General. No secondary distribution may be made,
                                 in whole or in part, outside the Department of State or the Broadcasting Board of
                                 Governors, by them or by other agencies of organizations, without prior authorization
                                 by the Inspector General. Public availability of the document will be determined by the
                                 Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                                 may result in criminal, civil, or administrative penalties.




                                                       SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                    Table of Contents
Key Judgments                                             1
Context                                                   3
Executive Direction                                       5
  Interdepartmental and Interagency Relationships         7
  Innovative Practice: Duty Teams                         7
  Outreach and Training                                   8
Office of Children’s Issues                              10
  Adoption Division                                      13
  Abduction Divisions                                    14
  Incoming Abductions                                    16
  Prevention                                             16
Office of Policy Review and Interagency Liaison          17
  Communication                                          17
  Workload Management                                    20
  Parity                                                 22
  Resources                                              23
Resource Management                                      27
  Financial Management                                   28
  Human Resources                                        31
(b) (5)                                                  33
List of Recommendations                                  37
List of Informal Recommendations                         40
Principal Officials                                      43
Abbreviations                                            44




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
 •   The Office of Children’s Issues (CI) in the Bureau of Consular Affairs Directorate of
     Overseas Citizens Services (CA/OCS) has a highly committed workforce that, overall,
     successfully provides policy guidance, training, and support to posts, parents, and others
     engaged in stressful and emotional international adoptions and abductions.

 •   CI more than tripled in size in less than 4 years. Senior managers have addressed the
     strain through restructuring the office, refocusing its mission toward improving
     international and bilateral cooperation, and establishing standard operating procedures.
     These efforts need to continue, and CA/OCS leaders should also emphasize training for
     managers and CI country officers.

 •   The special advisor to the Secretary for children’s issues engages effectively to promote
     U.S. interests in international fora, in countries where adoptions and abductions are
     significant bilateral issues, and with concerned parties in the United States.

 •   CI’s outreach and training branch lacks sufficient direction. This branch should be
     consolidated with other CA/OCS training elements and moved under the purview of the
     CA/OCS managing director.

 •   The Office of Policy Review and Interagency Liaison (PRI) provides expert legal advice
     and is responsive to CA/OCS staff but is hard pressed to keep up with increasing demand
     for its services, particularly in the area of family law. Weak workload management
     makes it difficult for PRI to quantify its needs and provide timely responses to overseas
     consular section inquiries.

 •   Coordination among attorneys in PRI and their counterparts elsewhere in the Bureau of
     Consular Affairs (CA) and the Office of the Legal Adviser is ad hoc and inefficient. CA
     needs a mechanism to coordinate better the work of its three legal offices and to establish
     priorities. PRI should resubmit its request to be renamed the Overseas Citizens Office of
     Legal Affairs (OCS/L) to align with CA’s counterpart legal offices.

 •   With funding from the Department of Justice, PRI provides advice and training to
     improve assistance to victims of crime overseas. Reassigning this function elsewhere in
     CA/OCS will provide a better focus for PRI’s training role.

 •   The CA/OCS revamped duty officer regime and its alignment with task force staffing in a
     crisis is an innovative practice.

 •   The Planning, Programs, and Systems Liaison division (P) is a relatively new CA/OCS
     division that has taken on various service and liaison functions for the directorate. Broad
     customer dissatisfaction, however, indicates a need for better management and
     communication to improve services and advocate successfully for resources. Operational
     responsibility for financial controls for all OCS should be consolidated within P.
                                        1
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


   •   The advent of a new contract service provider in 2011 was not well received or
       understood by CA/OCS employees. The work of some case assistants in CI goes beyond
       the scope of the contract. CA should amend the contract and/or replace contract case
       assistants with full-time employees.

   • (b) (5)
                                                             The planned consolidation of all CA
       offices and personnel into a newly leased facility in 2013 will resolve the space problem
       and offer the possibility for consolidation of services and greater operational
       effectiveness. CA/OCS should make planning for its move a high priority to ensure a
       smooth transition.

   • (b) (5)




The inspection took place in Washington, DC, between January 19 and March 16, 2012. (b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Context
        The basic mission of CA/OCS is protecting and assisting U.S. citizens abroad. OIG
inspected the Office of American Citizens Services and Crisis Management (OCS/ACS) in the
spring of 2011. This inspection covers the remaining elements of OCS: CI, PRI, and P.

        CI has the lead role for the Department on two sensitive issues: international parental
child abduction and intercountry adoptions. PRI provides legal advice and technical guidance to
CA managers regarding CA/OCS programs carried out by its personnel and by consular officers
worldwide. PRI also participates in formulating policies relating to emergency and
nonemergency services to Americans residing or traveling abroad and to interested parties in the
United States. P is a relatively newly established division that provides liaison with systems and
management support elements affecting all of CA/OCS.

         OIG last inspected CI and PRI in the summer of 2005. Since that time, CI has more than
tripled in size from 30 staff members to more than 100 Foreign Service, Civil Service, student
interns, and contract employees. This expansion stemmed in large part from CI’s assuming its
role as the U.S. Central Authority for the Hague Convention on Protection of Children and Co-
operation in Respect of Intercountry Adoption (Adoption Convention) and the Hague
Convention on the Civil Aspects of International Child Abduction (Abduction Convention). 1 In
addition, and in recognition of the importance of these critical areas that affect the lives and
welfare of children around the globe, the Secretary appointed a special advisor for children’s
issues who engages with foreign government officials, members of Congress, and key
stakeholders to protect the welfare and interests of children and to raise awareness of and support
for these issues. The special advisor and CI work together in CA/OCS to pursue these goals. PRI
has also expanded its role in supporting CI but without a commensurate growth in personnel to
do so. PRI’s legal responsibilities are expected to increase further when the United States ratifies
the 1996 Hague Convention on Protection of Children, but this is still some time off. At the
behest of the Department of Justice, PRI also has managed a program that provides assistance to
U.S. citizen victims of crime overseas. PRI cooperates with the Social Security Administration
and other agencies that provide Federal benefits to beneficiaries overseas.

         Over the past 2 years, CA/OCS has engaged in a major restructuring project in response
to its growth and new responsibilities, including a greater emphasis on crisis response,
increasingly frequent international travel, and more citizens choosing to reside abroad. The
project has reinterpreted and redrafted many position descriptions in the organization, including
that of the Assistant Secretary, to reflect more accurately the work that CA/OCS performs today.
CI completed its initial restructuring in 2010. CA asked the OIG team to review additional
proposed organizational changes during the inspection.



1
  The Hague Convention of 25 October 1980 on the Civil Aspects of International Child Abduction seeks to combat
parental child abduction by providing a system of cooperation between central authorities and a rapid procedure for
the return of a child to the country of his or her habitual residence. The Hague Convention of 29 May 1993 on
Protection of Children and Co-operation in Respect of Intercountry Adoption is an international agreement to
safeguard intercountry adoptions.
                                                3
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The rapid growth and subsequent reorganization in CI has resulted in a relatively
inexperienced work force of new hires and new managers as well as serious overcrowding in
office space in State Annex 29. The Department recently signed a lease on a new building and is
engaged in its renovation. All of CA will move there in 2013.

        To help gauge how well the inspected CA/OCS elements are supporting consular sections
worldwide, the OIG team administered a survey, which resulted in more than 200 responses from
overseas consular officers. The team also surveyed and interviewed personnel in the inspected
units as well as a number of interested parties both within and outside the Department.




                                          4
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
         CA/OCS is in good hands with the current senior leadership. The deputy assistant
secretary (DAS) and his immediate subordinate, the managing director, are an effective team.
Although the DAS spends most of his time in the CA front office, where he is accessible to the
Assistant Secretary for Consular Affairs, and the managing director is in State Annex 29 on
Pennsylvania Avenue, several blocks from the Harry S Truman building, both make a strong
effort to maintain frequent contact.

         The DAS visits State Annex 29, where he has an office, nearly every day and often
chairs important meetings there. In an effort to be more accessible to all CA/OCS staff, he
occasionally hosts a biweekly informal “kaffee klatch” that any staff member may attend. These
gatherings are not structured, and anyone can raise a subject for discussion. Recent topics
included the prospective move to the new building in 2013 and telecommuting experiences. Both
the DAS and managing director are well liked and respected. In the preinspection survey, the
managing director received above average scores across the board on a range of leadership
qualities in comparison with most Department managers. Although the DAS is less well known
(and was not generally rated), he is also favorably regarded.

         Some in CA/OCS express concern that important CA/OCS issues are not always
priorities in the CA front office. This perception may stem in part from imperfect
communication. There are several avenues for information flow, including the daily activity
report, information memoranda, and weekly expanded meetings. CA/OCS leadership is aware of
the continuing need to ensure that it is an effective advocate for CA/OCS equities and is
proactive in responding to new mandates from senior Department leaders. An example of the
latter is CA’s greater attention to the ramifications of new assisted reproductive technologies and
their implications for U.S. citizenship determinations.

        Morale in the inspected entities is generally good despite the challenges of overcrowded
conditions, increased responsibilities, inexperienced middle managers, and organizational
changes. Many of CI’s clients are under considerable stress and can be emotional and
demanding, and staff must treat these parents with great tact and sensitivity. Staff members credit
team work, improved overall guidance and direction, and appreciation for their work as positive
influences on morale. A change in CI’s focus from being case officers to concentrating more on
the bilateral relationship aspects of the work as country officers has created greater opportunities
for employee growth and effectiveness. For the most part, this has been a welcome change.

        CI organizational changes added mid-level managers to its structure and sought upgrades
for some positions to reflect increased responsibilities. CI’s rapid expansion led to rapid staff
promotions, and the OIG team identified a need for managers at both the branch and division
levels to provide additional formal managerial training and close mentoring by supervisors.

       Prior to the arrival of the current incumbent, the CA/OCS managing director was a Senior
Foreign Service officer and the office director for American Citizens Services was Civil Service.
When CA promoted the office director for OCS/ACS to managing director, the positions were
reversed so that the managing director position became Civil Service and the director for

                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

OCS/ACS became Foreign Service. The Civil Service managing director position was then
upgraded to Senior Executive Service. The OIG team found that the current structure strikes a
good balance of leadership positions between the services, providing continuity in a key Civil
Service management position while maintaining the perspective brought to the organization by
Foreign Service officers with extensive overseas experience. In order of hierarchy, the DAS is
Foreign Service, the managing director is Civil Service, and the heads of the two major CA/OCS
offices are Foreign Service, who supervise a mix of Foreign Service and Civil Service
employees.

        By all accounts, the special advisor for children’s issues has been an invaluable addition
to CA/OCS. A foreign policy position created by the Secretary in July 2010, the special advisor
assists CI by engaging foreign governments, such as recently Brazil and Kyrgyzstan, to advance
adoption and abduction cooperation. The special advisor and CA/OCS leadership have
established a comfortable and mutually supportive relationship. With no direct oversight
responsibilities for day-to-day operations, the special advisor focuses on her role of representing
the Secretary and CA. CA believes, and the OIG team concurs, that this should be a permanent
ambassadorial-level position.

        Additional proposed organizational changes and positions are pending the results of this
inspection. For various reasons that are outlined in the discussion of the individual offices, the
OIG team is recommending changes to the CA/OCS structure that will result in six units
reporting to the managing director. This is a broad span of control and one to challenge the most
dedicated and talented leader. Nevertheless, it is the OIG team’s judgment that it is for now the
best structure for CA/OCS operational effectiveness. The managing director was previously
director of OCS/ACS, and she also served as director of CI. She knows their missions well,
making it easier for her to keep tabs on their operations and provide direction. The new head of
CI is an energetic officer with excellent vision and managerial skills who has taken firm control.
The OIG team believes it is now necessary for the managing director, as head of all CA/OCS, to
direct her efforts where her leadership is needed. The OIG team counseled her to actively
intervene in situations where performance is not up to expectations. To her credit, she
immediately endeavored to make greater use of her weekly meetings with office directors to
ensure that they were on top of important tasks and office communications.

        Three units will particularly need closer supervision and direction and to establish
appropriate management goals in the immediate future. The new unified CA/OCS Outreach and
Training unit will need direction as it expands its horizons from children’s issues to support for
all CA/OCS internal and external training and orientation programs. That office will also have to
absorb the victim assistance training function and personnel now residing in PRI and OCS/ACS.
PRI’s growth since its last inspection has not kept pace with the growth in children’s issues, and
family law is a particularly challenging legal specialty. Additional work will accrue to PRI when
the Hague Convention on Jurisdiction, Applicable Law, Recognition, Enforcement and Co-
operation in Respect of Parental Responsibility and Measures for the Protection of Children is
ratified. Better workload management is needed, along with greater discipline with regard to
matters referred to PRI for review. The current inspection is the first for P, which was established
in 2004 to provide support and services to all of CA/OCS. P got off to a rocky start and has not
found its footing in several areas where support for the rest of the organization is vital. Problem
areas include internal communications and advocacy for CA/OCS resources and support from
                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

CA. See the Office of Children’s Issues and the Policy Review and Interagency Liaison sections
for more detailed discussions of the findings for these offices and specific recommendations to
address issues such as establishing timelines and standards for P to complete tasks and for PRI to
provide timely responses to requests from overseas posts for legal advice. As the overall
responsibility for effective operations falls to CA/OCS leadership, the OIG team advised
CA/OCS managers to focus more attention on areas where these offices need guidance.

       Informal Recommendation 1: The Bureau of Consular Affairs should implement a plan
       to monitor progress toward meeting the management goals of the Office of Policy
       Review and Interagency Liaison; the Policy, Programs, and Systems Liaison division;
       and the new Outreach and Training unit.

Interdepartmental and Interagency Relationships

        CA/OCS deals with a wide range of counterparts both inside and outside the Department.
On sensitive and high-profile cases, staff works effectively with the regional bureaus. For both
intercountry adoptions and international parental child abductions, CI country officers have
extensive interaction with Federal and local law enforcement and the judiciary, as well as various
agencies involved with child welfare. During the inspection, the OIG team interviewed a number
of these contacts. Without exception, CA/OCS partners and counterparts valued and respected
their cooperation with CA/OCS.

Innovative Practice: Duty Teams


Innovative Practice: Duty Teams

Issue: The inspection of OCS/ACS in spring 2011 identified the duty and task force systems in
OCS as an area of weakness. Although participation was required, duty and task force
assignments were not consistently tracked, and there was a perception that some employees
successfully avoided them. The system of multiple duty officers to cover different time slots for
a week at a time was confusing and onerous.

Response: CA/OCS convened a working group and developed a team approach to duty. There
are 12 duty teams consisting of 7 to 8 members and 2 duty directors. Members are drawn from a
mix of divisions and branches within CA/OCS. The teams serve for 1 week and rotate on
Wednesdays. They field calls from 5:00 p.m. to 8:15 a.m. on weekdays and for 24 hours on
weekends and Federal holidays. One team member is designated as on call on any one night. All
team members have BlackBerry devices with the same number, but only the on-call member
turns the BlackBerry on for that evening. This arrangement provides a single contact number for
the Operations Center and the National Contact Center and avoids passing on a single duty
phone on a daily basis.

In the event of an emergency requiring the entire team, the duty director contacts each team
member directly. This enables the duty team to instantly transition to a mini crisis task force and
carry on until, or if, a full-scale task force is established.

                                           7
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Result: The system is new and still evolving but seems very effective so far. Duty is tracked and
carried out equitably. No single person has to be on call after hours for more than 1 day every 3
months. Persons on call feel more confident that they can reach a duty supervisor for guidance
when needed.

The ability for a duty team to become a minitask force provides expanded coverage for those
events, such as a plane crash, that are too complicated for one person to handle but not
sufficiently dire to require a full task force. It also cuts hours off the time it usually takes to
constitute a full task force for, say, a major earthquake.

This approach could be duplicated by other large offices that have duty responsibilities or even
by large overseas missions.


Outreach and Training

        Outreach and training in CA/OCS is dispersed among the various offices and divisions.
There are components in CI, OCS/ACS, and PRI (for the Victim Assistance unit). The largest
single element is the Outreach and Training branch in CI. In terms of training, the branch is the
liaison with the Foreign Service Institute for the PC-129 (Countering International Parental Child
Abduction) course and has helped design the new 5-day overseas citizens services course, which
will replace both PC-129 and PC-124 (Assisting Victims of Crime). The outreach and training
officers also contribute content to the consular leadership development courses conducted
regionally. Internally, these officers are responsible for conducting newcomer training and
seminars on various topics of interest to CA/OCS. These offerings are under the framework of
the “OCS University” and frequently include remote participation by consular staff overseas.
During the inspection, at the suggestion of the OIG team, a career management specialist whose
work did not fit well within the CI branch was shifted to P, where the incumbent can correctly
focus on CA/OCS individual employee professional development.

        For outreach, the officers coordinate a review of the content and layout of pages on the
travel.state.gov Web site. They also plan and coordinate two big external outreach programs:
adoptions in May and abductions in November. The training officers plan multiple public events
in coordination with outside partners in the adoption and children’s welfare community and have
been successful in getting the Secretary to speak at certain events. The officers also coordinate
closely with CA’s Office of Policy Coordination and Public Affairs on both outreach events and
with congressional liaison.

        Despite the enthusiasm for and creative ideas about outreach and training, these efforts
have developed in an ad hoc manner and lack focus in CA/OCS in general and in CI in
particular. Senior CA/OCS management has not provided adequate direction on the allocation of
resources. Duplication of effort exists between, for example, OCS/ACS and PRI/Victims
Assistance, which both reach out to the overseas student community.

Recommendation 1: The Bureau of Consular Affairs should combine the various functions in
the Directorate of Overseas Citizens Services that are dedicated to outreach and training into a
single unit under the direct supervision of the managing director. (Action: CA)
                                                 8
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         Over two-thirds of CI staff members have worked in the office for less than 3 years, and a
majority have never served overseas. A consistent criticism from embassy consular sections is
that CI country officers do not understand what consular sections do, the overseas working
environment, or the sections’ work limitations. CA/OCS encourages all its Civil Service
employees to enroll in the basic consular officer training (ConGen Rosslyn). Currently, however,
this is possible only on a space-available basis. Openings often occur at the last minute, making
it difficult to commit to 6 weeks of training on such short notice. A number of employees have
been at their jobs for 3 years or more and still have not taken this training. Those employees who
have received training have also been able to serve as a trained reserve of personnel available to
staff consular operations in need of emergency temporary duty support, as is now the case in
Brazil. Securing basic consular officer training for all permanent staff will allow CI staff to
perform its duties more effectively and establish a cadre of trained Civil Service employees.

Recommendation 2: The Bureau of Consular Affairs, in coordination with the Foreign Service
Institute, should provide consular training to all newly hired permanent employees in the
Directorate of Overseas Citizens Services within 6 months of their employment. (Action: CA, in
coordination with FSI)

        As noted earlier, the rapid growth of CI has resulted in the quick advancement of staff
members to branch and division chief levels. As a result there are branch and division chiefs who
have never managed before and thus have little or no experience in setting clear goals for their
subordinates, reviewing performance, counseling on areas of weakness, or dealing with difficult
subordinates. CI has not required newly promoted branch and division chiefs to take advantage
of the wide range of basic managerial training courses offered at the Foreign Service Institute.

Recommendation 3: The Bureau of Consular Affairs should implement a policy requiring that
all branch and division chiefs in the Directorate of Overseas Citizens Services successfully
complete appropriate level leadership training at the Foreign Service Institute within 6 months of
their promotions. (Action: CA)




                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Office of Children’s Issues
         Established in 1994, CI is responsible for U.S. policy on intercountry adoptions and
abductions. The Department is the U.S. Central Authority for the Adoption Convention and the
Abduction Convention, which the United States joined in 2008 and 1988, respectively. CI carries
out the functions of the U.S. Central Authority. Expanded Hague Convention responsibilities
largely account for the explosive growth of the office from 4 employees in 1994 to more than
100 today. International abductions and adoptions are high-profile, frequently emotional issues
that attract widespread congressional and public attention. The work is difficult, and the
employees involved, particularly in abduction cases, are subject to severe pressure and tension.
CI is remarkable for the dedication and compassion of its staff.

        Serving as the U.S. Central Authority for the two conventions has created a unique
domestic role for the Department, requiring it to be involved in the regulation of domestic
organizations and to interact with state and local judicial systems more than ever before. This is a
role that the Department, particularly CA/OCS, has only begun to understand.

         The current name, “Office of Children’s Issues,” is a misnomer in that it is too broad.
Officers in the field, other Department employees, congressional staff and, most particularly, the
public mistakenly assume that CI is the Department office responsible for all issues involving
children, including trafficking, abuse, child support, and runaways, all of which are the concern
of other elements of the Department. Although the CA public Web site clearly defines the kinds
of adoption and international parental child abduction cases under CI’s purview, it does not
clearly direct the public to other CA offices or Department bureaus that are responsible for other
child-related issues. CI officers spend significant time explaining what they do not do and
referring frustrated people seeking assistance to the proper office. The time lost, plus the
irritation of both the public and important constituencies, is unnecessary and counterproductive.

Recommendation 4: The Bureau of Consular Affairs should rename the Office of Children’s
Issues, choosing a name that better reflects the specific nature and parameters of the office’s
work. (Action: CA)

       Informal Recommendation 2: The Bureau of Consular Affairs should modify its public
       Web site to distinguish better among the child-related issues that are the responsibility of
       the Office of Children’s Issues, the Office of American Citizens Services, and other
       Department of State bureaus.

        CI is divided into four divisions: one for adoption policy; two for outgoing abductions;
and one for incoming abductions, prevention, and training and outreach. The adoption and
abduction functions are very different. The Adoption division is concerned primarily with policy,
seeking to expand the number of countries covered by the Adoption Convention and promoting
and implementing the country-specific bilateral agreements that are necessary for the convention
to function. The two Outgoing Abductions divisions divide the world geographically and work
with countries that are members of the Abduction Convention as well as those that are not. These
divisions are engaged in cases involving abducted children, specifically with left-behind parents,
and are more actively pursuing policy changes and convention accession issues.

                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The CI director supervises more than 100 employees, a workforce larger than most
embassies. The responsibilities include interacting with extensive, high-level contacts with
foreign governments and international organizations. Although the incumbent is a Senior Foreign
Service officer, the position is graded FS-01. CA’s previous request that the position be upgraded
to Senior Foreign Service was denied. Although the director reports to the DAS through the
managing director, the OIG team supports CA’s renewed efforts to upgrade the CI director
position.

        CI management has worked to make its mission clear and to put the welfare of children
first. However, this is not always evident to constituencies, particularly potential adoptive
parents and parents seeking the return of abducted children. Both groups expect the Department
to be their advocates, and CI must engage in a delicate balancing act between fulfilling its stated
mission and assisting constituencies achieve their goals within the context of that mission.

         Although the CI director has moved to change the focus of the office from primarily
casework to policy-based initiatives, this shift is not clearly understood or appreciated in the
adoption community and among left-behind parents. Because of CI’s long-standing reputation
for effective work with individual cases of abducted children and parents trying to adopt abroad,
its officers are often perceived as social workers. Although the transition has also been difficult
for some longtime employees, the new emphasis on interaction with foreign central authorities
and governments, as well as on drafting and interaction with other Department offices, has better
aligned CI with the rest of the Department and enhanced the office’s reputation.

        To clarify the policies and procedures of the office relative to the new focus on policy, CI
is working to draft and implement a series of standard operating procedures covering all aspects
of office operations. The OIG team supports this effort.

       Informal Recommendation 3: The Bureau of Consular Affairs should complete its
       program of standardizing internal operating procedures in the Office of Children’s Issues
       and include a process for keeping the information up to date.

         The special advisor for children’s issues engages foreign government officials on issues
concerning the welfare and interests of children. The same person has held this position since its
creation and has become the public “face” of CI and of the Department on intercountry adoption
and parental child abduction. The incumbent’s ambassadorial title affords her entré to the highest
levels of foreign governments and direct access to members of Congress. The special advisor
devotes all her time to promoting and explaining U.S. policy and working with foreign
governments to facilitate accession to the Hague conventions. This position has proved
invaluable to the Department. The special advisor led successful negotiations with Vietnam and
Kyrgyzstan to allow processing of “pipeline” adoption cases that were being held up. She has
also been instrumental in achieving the return from Japan of several abducted children, for the
first time with Japanese Government cooperation. Although this position was created at the
Senior Foreign Service level, it does not necessarily follow that the incumbent will have
ambassadorial rank. Everyone agrees that the title is essential in obtaining the access and results
the special advisor has achieved and that future incumbents will be fully effective only if they
hold ambassadorial rank.

                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The special advisor has a heavy travel and speaking schedule but has no dedicated
support staff. Instead, she draws on employees supporting other CI managers to assist with travel
and other functions commonly performed by a special assistant. The support assignments are
rotating, and the duty depends on the destination. This arrangement is disruptive and inefficient.

       Informal Recommendation 4: The Bureau of Consular Affairs should assign one officer
       to serve as the special advisor’s special assistant in the Office of Children’s Issues.

        CI uses telework strategically. One country officer teleworks full time. Two officers
share a desk and alternate telework and office days to alleviate overcrowding in the office. Three
contract advisers, all with previous experience in the office, perform all their work remotely.
Telework is more efficient for the adoption officers than for the abduction officers, who are
limited in what they can do with the current International Parental Child Abduction software.

        CI also makes effective use of temporary duty assignments to provide valuable overseas
experience for country officers. Recently, these opportunities have been primarily consular tours
in Brazil. These assignments allow Civil Service employees to acquire essential knowledge of
field operations and provide CA with valuable assistance at busy posts.

        All of the Civil Service country officers in the Adoption and Abduction divisions are
hired on a grade ladder ranging from GS-9 to GS-13. The descriptions for these positions are out
of date and do not reflect the change in emphasis from caseworker to country officer
responsibilities discussed earlier. Furthermore, the work requirements for officers at each grade
level are not well defined, making it impossible to determine officer grade from observation of
work in progress or from functional assignment. This situation results in inequitable assignments,
uneven workloads and, in some cases, the perception of favoritism.

Recommendation 5: The Bureau of Consular Affairs should revise all Civil Service position
descriptions in the Office of Children’s Issues to reflect the current work requirements. (Action:
CA)

         In shifting its focus, the office has made good use of the talents of most employees, but
not all have the requisite skills. Some do not understand what they need to improve to advance
or, in the case of some of the more senior employees, perform at their grade level.

       Informal Recommendation 5: The Bureau of Consular Affairs should implement a
       policy requiring all managers in the Office of Children’s Issues to counsel all employees,
       review their performance, and recommend any necessary training.

        The current office director has made some sweeping and abrupt changes in CI. Senior
managers have endorsed these changes and, as noted previously, have elevated the status of the
office and helped achieve the Department’s policy objectives. But rapid change comes at a cost,
with the morale of some employees suffering as they struggle to adapt and meet the new
demands.




                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Adoption Division

        The Adoption division comprises two branches that deal separately with Hague and non-
Hague countries, with officer portfolios divided along the same lines. Although this separation
allows specialization in the complex requirements that distinguish the two sets of regulations and
procedures, it also limits the versatility of employees. As more countries join the convention, the
balance between the branches is changing and becoming unequal, making the division less
effective overall and leading to uneven workloads.

       Informal Recommendation 6: The Bureau of Consular Affairs should reorganize the
       Adoption division in the Office of Children’s Issues so that officer portfolios include both
       Hague and non-Hague countries.

        As part of the legislation supporting U.S. accession to the Adoption Convention,
Congress insisted that an independent accrediting entity approve adoption service providers as
required by the convention. Currently, there are two such entities. The largest by far is the
Council on Accreditation, which previously provided a seal of approval for various kinds of
organizations, such as nonprofits and hospitals, that sought a level of official approval based on a
common set of established standards for similar organizations. When asked to accredit adoption
service providers, the accrediting entities had to assume a regulatory role because, under the
convention, unaccredited organizations cannot offer adoption services in Hague countries. The
denial of accreditation is a serious step, and the Council on Accreditation has been sued over its
decisions to deny or suspend accreditation. The Department and the Council on Accreditation are
only now realizing the full scope of the council’s role and that of CA/OCS in supervising it.
Suspension of accreditation is also very difficult for prospective adoptive families who already
may be working with the service provider.

        CI made one country officer responsible for liaising with the accrediting entities. Created
prior to U.S. accession to the Adoption Convention, this portfolio provides a critical link
between those organizations and the Department. The previous incumbent, who recently retired,
was selected specifically for the position and had excellent qualifications, including being a
practicing attorney. At her retirement, the portfolio passed, at least temporarily, to an officer
who, though willing, lacks the necessary experience and qualifications.

       Informal Recommendation 7: The Bureau of Consular Affairs should select or recruit a
       fully qualified replacement for the accrediting agencies liaison portfolio in the
       Directorate of Overseas Citizens Services.

        Adoption policy is a highly charged subject. Prospective adoptive parents, adoption
service providers, and the broader adoption community seek to expand the number of
intercountry adoptions completed each year. The Department does not take a position on the
number of adoptions that should be completed but does seek to ensure that all adoptions are
ethical and do not involve baby selling or stealing and that the practices of adoption service
providers and country adoption authorities are ethical. As a result, adoptions have been
suspended in several countries and the total number of intercountry adoptions to the United
States has fallen significantly. Although some critics perceive the Department’s actions as an
attempt to impede intercountry adoption, CI is working to resolve problems in these countries.
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         U.S. Citizenship and Immigration Services must approve all adoption petitions, and
consular officers in the field process the visas based on the approved petitions. The U.S.
Citizenship and Immigration Services adjudicates each case individually based on the evidence,
and its decisions are subject to court challenge. The Department looks at the broader trends and
activities related to adoptions in a given country and recommends suspension of adoption
processing or seeks remedial actions by the host government to address illegal activities or
practices prohibited by the Adoption Convention.

        In an effort to bring worldwide adoption practices into compliance with standards
established under the Adoption Convention, the Department and U. S. Citizenship and
Immigration Services are working toward universal accreditation of all adoption service
providers. This accreditation, a program to reverse the order of actions in adoption cases so that
the petition is approved before the family and child are matched, and the accession of more
countries to the Adoption Convention are CI’s three major policy objectives.

        The Adoption division has a mix of Foreign Service and Civil Service positions. The
director, division chief, and one branch chief are Foreign Service, and another branch chief is
Civil Service. The Foreign Service officers rotate out every 2 years. The one complaint
expressed by all of CI’s interlocutors in other agencies and nongovernmental organizations was
the lack of continuity in key positions. Many of the issues and most of the negotiations are long-
standing, and it is understandably frustrating when key Department players depart and their
replacements struggle to learn the issues. At the time of the inspection, all of the Foreign Service
transfers were on the same cycle. Although CA can address this issue to some degree by
changing the assignment cycles, a better solution would be one that offers a permanent balance
between Foreign Service and Civil Service employees in key roles.

Recommendation 6: The Bureau of Consular Affairs should convert the Adoption division
chief position (number D0360401) from Foreign Service to Civil Service and convert the current
Civil Service branch chief position (number D0360800) to Foreign Service. (Action: CA)

Abduction Divisions

        Two divisions of CI deal with outgoing international parental child abductions from the
United States. As a member of the Abduction Convention, the United States has very specific
responsibilities, and the types of cases that qualify as intercountry parental child abductions are
narrowly defined. The United States currently partners with 68 countries under the convention,
with 6 more under consideration in 2012. In cases that involve non-Hague Convention countries,
the eligible cases and the options available are less well defined. Overall, 660 children were
returned to the United States in 2011. As the U.S. Central Authority, the Department also has
responsibilities for incoming international parental child abductions, and CI administers the
Children’s Passport Issuance Alert Program to help prevent abductions from occurring. (See the
Incoming Abductions and the Prevention sections of this report for further discussion.) CI’s
policy is to encourage as many countries as possible to accede to the Abduction Convention and
to assist newly joined countries in bringing laws and judicial processes into compliance. These
goals drive the diplomatic process of expanding convention participation.


                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The CI office director has worked to define better the cases that fall under CI’s purview,
eliminating those that do not meet the Abduction Convention definition and turning those that do
not meet the definition of parental child abduction over to OCS/ACS for handling as welfare and
whereabouts cases. This effort has reduced the caseload, which by law must be 75 cases or fewer
per officer, by 40 percent or more in some branches. Standardization is not complete, and some
officers cling to the previous broader definition, resulting in uneven workloads and confusion
among OCS/ACS employees and the public as to what the rules actually are.

       Informal Recommendation 8: The Bureau of Consular Affairs should complete the
       review of existing cases in the Office of Children’s Issues so that all future cases meet the
       current definition for acceptance before officers open them.

        When a case is accepted, the officer works with the left-behind parent to explain how to
file with the Central Authority in the country where the child has been taken. When appropriate,
the officer assists in efforts to resolve the case through mediation or a voluntary return. In non-
Hague countries it is much more difficult to enlist the help of host country authorities. The
officers are responsible for maintaining contact with the left-behind parents as long as the case is
open. Abduction cases are usually very emotional and frequently have a high media profile. The
work requires tact and patience. It is easy for left-behind parents to become dependent on
officers, and many have unrealistic expectations about what the Department can and should do
on their behalf. Some officers become so invested in the case work elements of their job that they
have trouble distancing themselves from the left-behind parents.

        The basic tool CI uses for managing abduction cases is the International Parental Child
Abduction software program. This program has been in use for many years and is outmoded,
lacking many modern features such as the capability to scan and attach documents to a case file
as well as full remote access. At the time of the inspection, a new version of the program was
about to be released, which should address some, if not all, of the problems.

        During 2010 CI realigned its divisions, divided them into branches, and added a
management level. The new tier of managers has improved oversight and control within the
divisions. CI is still working to align the branches most advantageously and balance the
workload. The changes in portfolios and functions have been difficult for some employees. CI
needs to provide appropriate training at all levels to make the changes work. CI must also be
aware of how the modifications affect left-behind parents, making sure parents understand them
and still receive appropriate services. Training issues are addressed more fully in the Training
and Outreach section of this report.

        One of the most significant changes brought on by accession to the Abduction
Convention was the diminished role of the National Center for Missing and Exploited Children
(NCMEC.) In 2008 CI took over full responsibility for incoming international parental abduction
cases, a role formerly played by NCMEC. The change was abrupt and resulted in a period of
difficult relations. NCMEC has significant resources, particularly its relationships with law
enforcement, that can aid in locating abducted children. NCMEC can also assist in media
campaigns to locate children. The organization continues to assist in funding parental travel and
the repatriation of some children. The current CI leadership has reached out to NCMEC and done
much to repair the relationship. NCMEC leadership appears eager to improve cooperation
                                          15
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

further. Continued efforts to foster cooperation between NCMEC and CI will be mutually
beneficial.

Incoming Abductions

        The Incoming Abductions branch in CI deals with cases of international parental child
abduction where the child is brought into the United States. This functionality was formerly
handled by NCMEC. Much smaller than the divisions and branches dealing with U.S. children
taken abroad, the Incoming Abductions branch plays a key role in demonstrating the U.S.
commitment to observing its convention obligations. More recently the branch has undertaken to
introduce consistent procedures to deal with incoming abduction cases from countries who are
not convention partners. By so doing, CI is able to provide other countries with concrete
examples of the relative advantage of joining the convention. The branch currently handles
approximately 400 incoming international parental child abduction cases. The branch has
extensive dealings with state- and local-level law enforcement and judiciary authorities and is an
increasingly important participant in bilateral discussions with international counterparts whose
first concern is the treatment their own nationals receive in the United States. A relatively new
branch chief is working to establish better, standardized procedures and to balance Hague and
non-Hague workloads more equitably among staff members.

Prevention

        The Prevention branch is the newest unit in CI. The branch began as a technical element
responsible for coordinating the Children’s Passport Issuance Alert Program, which enters holds
on passport issuance when one parent is concerned about a possible abduction situation. The
branch now has extensive involvement with passport agencies, overseas missions, and the U.S.
military on the issue of two-parent signature requirements for passport issuance. The branch also
has extensive and successful dealings with Customs and Border Protection as well as the
Transportation Security Administration in helping to thwart parental child abductions in
progress. The new branch chief is moving effectively to standardize previously ad hoc
procedures and to give the unit a real sense of identity.




                                         16
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Office of Policy Review and Interagency Liaison
        PRI manages its complex workload with a dedicated team of attorneys, complemented by
one certified paralegal, several capable nonlegal staff members—some of whom also possess
legal training or experience—and a cyclical stream of law school externs. PRI jurisdiction
encompasses a variety of programs on legal, technical, administrative, and fiscal matters. PRI
attorneys draft and interpret legislative and regulatory proposals pertaining to the safety and
protection of U.S. citizens abroad as well as U.S. citizenship and nationality matters, and they
participate in treaty negotiations, interpretation, and implementation. In coordination with the
Office of the Assistant Legal Adviser for Consular Affairs (L/CA), PRI provides legal advice
and technical guidance relating to CA/OCS programs carried out worldwide. PRI’s daily work
includes program analysis, formulation of memoranda pertaining to U.S. citizen protection, and
the administration of the Privacy and Freedom of Information Acts. PRI also manages ASKPRI,
a general inbox for questions covering the full panoply of PRI legal issues, ranging from
sensitive matters such as two-parent consent and passport revocation to cutting-edge legal issues
like those implicated by assisted reproductive technology.

         The attorneys, operational staff, and policy analysts collectively discharge interagency
responsibilities. For example, they liaise with other Federal agencies, service some overseas
Federal benefits claims, and provide the Social Security Administration with expert guidance to
facilitate totalization agreements. 2 External contacts, including individuals from The Hague
Permanent Bureau, the Social Security Administration, and the National Transportation Safety
Board, commended PRI for its responsiveness and professionalism. PRI has requested an
interagency liaison program analyst position to support this important work, facilitate
outstanding customer service, and maintain existing interagency relationships. The OIG team
agrees that this additional position is warranted.

Communication

       Throughout the course of the inspection, the commitment of PRI staff members to
serving their client base was apparent. With attorneys hailing from the Presidential Management
Fellowship program, the Department of Justice, private practice, and the field of licensed social
work, PRI employees combine their abilities and backgrounds to support a challenging
assortment of cases.

        Unfortunately, lack of communication and transparency hinders colleagues within CA
and at overseas missions from fully appreciating and understanding the issues PRI tackles on
behalf of the Department. Working in a subject-matter area where crises abound, PRI has not

2
  Totalization agreements keep U.S. multinational companies competitive abroad and have saved U.S. businesses
more than $1 billion annually in foreign Social Security taxes. International Social Security agreements, often called
totalization agreements, have two main purposes. First, they eliminate dual Social Security taxation, which occurs
when a worker from one country works in another country and is required to pay Social Security taxes to both
countries on the same earnings. Second, the agreements help fill gaps in benefit protection for workers who have
divided their careers between the United States and another country. More information is available at
http://www.socialsecurity.gov/international/agreements_overview.html.

                                               17
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

taken the time to reflect on its accomplishments and assess areas needing improvement.
Moreover, PRI has failed to convey clearly to its clients the basic information they need to
provide guidance effectively and efficiently.

        CA/OCS recently promoted an experienced PRI staff attorney from a group of internal
applicants to serve as the supervisory attorney advisor and chief of the Legal Services division.
The incumbent acts as a foil to senior staff members, providing these subject-matter experts with
administrative management and leadership support. Several management issues are in dire need
of attention. For example, although monthly PRI-wide staff meetings are scheduled, they often
either fail to transpire or are too poorly attended to be inclusive. The PRI staff does not meet
regularly to discuss mission goals, projects, or accomplishments, and team building is
nonexistent. Although the new supervisor has introduced monthly attorney meetings to begin
cross-training staff on the full array of PRI portfolios, there is no regular mechanism to transmit
information between division components. The glaring communication gap between PRI
management and staff remains.

       Informal Recommendation 9: The Bureau of Consular Affairs should implement a
       policy requiring the Office of Policy Review and Interagency Liaison to hold mandatory
       weekly attorney staff meetings to discuss case status and novel legal issues and to update
       backup attorneys as necessary about ongoing cases.

        As the inspection progressed, it became apparent that communication and coordination
among CA’s various legal units (i.e., PRI, the Visa Services Office of Legal Affairs, and the
Passport Legal division) is lacking. Although there are discrete issues within each CA legal shop
that do not warrant collaboration, other cross-cutting issues, such as those implicated by assisted
reproductive technology, have not benefitted from a collegial, joint approach. Occasionally,
L/CA bridges this communication gap, particularly if L/CA is overseeing litigation that involves
more than one CA legal division or is taking the lead for the issue, such as consideration of
options for addressing assisted reproductive technology cases. However, this informal approach
is personality driven and lacks the consistency of a formal process. A multioffice committee
could propose a mechanism to facilitate communication, set priorities, and provide advice to CA
leadership.

Recommendation 7: The Bureau of Consular Affairs should establish a committee with
members from the Office of Policy Review and Interagency Liaison, the Passport Legal division,
and the Visa Services Office of Legal Affairs to coordinate their work on a regular basis.
(Action: CA)

        Although PRI recently constructed a SharePoint site, primary attorneys do not use the
calendar or any other means to notify and brief their backup attorneys, CI country officers, or
other regular clients about ongoing or upcoming cases or when they will be out of the office.
Attorneys neither access the team calendar as a planning tool nor update it regularly.

       Informal Recommendation 10: The Bureau of Consular Affairs should implement a
       policy that requires the Office of Policy Review and Interagency Liaison to use its newly
       established SharePoint calendar to record and coordinate scheduled leave, sick leave,

                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       alternative work schedules, upcoming travel, and training so that portfolios are routinely
       covered.

         Attorneys expressed concern that their clients perceive PRI as an obstacle to progress due
to its protracted response time. PRI attorneys recognize that CA/OCS officers and others
sometimes avoid consulting PRI due to potential delays. To overcome this negative perception,
many PRI attorneys strive to maintain an open-door policy during their office hours to encourage
open communication and facilitate casual “drop-in” encounters. However, due to lack of
standard PRI office hours, many in CA/OCS are unsure about when PRI attorneys may be found
at their desks for consultations. The OIG team counseled PRI about posting its normal office
hours for colleagues and clients both online and on attorneys’ office doors.

        Exacerbating this communication breakdown, PRI noted that its CA/OCS colleagues do
not always know when it is appropriate to reach out to PRI for legal advice. Although PRI
periodically conducts training on the difference between providing information and providing a
legal opinion, the underlying communication problem remains. Sometimes PRI discovers after
the fact that someone in CA/OCS sought clearance from L/CA instead of PRI or entirely
neglected to clear a document that needed PRI review. PRI may add value by narrowing the
scope of an issue, correcting a legal error, or clarifying a document only if clients seek its
counsel.

       Informal Recommendation 11: The Bureau of Consular Affairs should document the
       Office of Policy Review and Interagency Liaison’s formal role in the clearance chain,
       including the procedure for obtaining clearances, and disseminate this information
       throughout the Directorate of Overseas Citizens Services.

        Some attorneys have not received interim informal appraisals of their work, and many
commented that even the formal appraisal process was not helpful because it was pro forma.
Staff members would like to receive regular informal input about their projects and their success
in meeting work requirements. As discussed in greater detail in the Human Resources section of
this report, PRI is not submitting staff award nominations in accordance with Foreign Affairs
Manual (FAM) guidance. Unlike their CA/OCS peers, PRI staff members rarely receive formal
recognition through the awards process, which has a negative effect on morale. To compound
this problem, some PRI staff members have received team awards for contributions they could
not have made due to their absence from the office. PRI management has acknowledged these
issues and plans to remedy them.

        PRI staff members have travel, training, teleworking, alternate work schedule, and
temporary duty opportunities. However, these career-enhancing, expertise-building, and morale-
boosting exercises are not distributed evenly throughout the division. Although some staff
members engage in significant travel, training, and temporary duty assignments and have
alternate work schedules, others who would benefit from similar experiences have yet to do so
even to a limited extent. PRI staff is unclear about the selection criteria for these opportunities.
Issues related to teleworking and alternate work schedules are addressed further in the Resource
Management section of this report.


                                          19
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


Workload Management

         PRI staff members accomplish an incredible amount of work, juggling competing
priorities and emergency inquiries that fill an average day. Shifting priorities, evolving crises,
and the sheer volume of work combine to delay their response time, and sometimes cases fall
between the cracks. Individual attorneys strive to manage their workloads, but there is no
standard process or guidance to assist them in this task, which means that response times vary
widely. Despite the urgent nature of some of the work, there remains a robust core of predictable
cases that could be handled more effectively. Proactive planning would go a long way toward
managing PRI attorney workload and client expectations. Additionally, a method to track overall
production would help managers determine whether PRI needs additional personnel to complete
its work in a timely manner.

Recommendation 8: The Bureau of Consular Affairs should implement standard operating
procedures and timelines for making staff work assignments in the Office of Policy Review and
Interagency Liaison, incorporating these standards and expectations into each employee’s annual
work requirements. (Action: CA)

        Even when PRI has a specific metric in place, it is not widely known. For example, the
Passport Office, Office of Legal Affairs and Law Enforcement Liaison and PRI have a
memorandum of understanding regarding passport revocation cases. When a passport revocation
case involves an overseas passport issuance, PRI has an advisory role to play in the
decisionmaking process. The Passport Office, Office of Legal Affairs and Law Enforcement
Liaison maintains an Excel database to track cases it has referred to PRI, some of which stretch
back as far as 2006. Under the terms of the memorandum, PRI is required to submit its written
advisory opinion to the Passport Office within 90 days of receiving a passport revocation case.
However, PRI staff members were unaware of this requirement. At the time of the inspection,
PRI had not satisfactorily responded to the Passport Office, Office of Legal Affairs and Law
Enforcement Liaison’s requests for updates regarding the ever-growing backlog, which has
negative implications for individual rights.

Recommendation 9: The Bureau of Consular Affairs should implement a policy requiring the
Office of Policy Review and Interagency Liaison staff members to meet the 90-day passport
revocation deadline established by joint memorandum with the Passport Legal division. (Action:
CA)

        Because of PRI’s crisis-response management model, staff members take a reactive
rather than a proactive approach to the majority of their work. When a project is perceived as a
low priority, lacks a formal deadline, or there is no contact person to update, it tends to fall by
the wayside. The legitimation table 3 is one long-term yet important project that PRI has


3
  Crafting a worldwide table of international and domestic legitimation laws from 1900 to the present will assist
overseas posts in determining whether a child acquired U.S. citizenship at the time of his or her birth. This question
arises if a child is born out of wedlock overseas. In such cases, the consular officer must determine whether the legal
requirements for citizenship acquisition that applied at the time the child was born have been met. The child’s date
of birth and the citizenship law of the father’s and/or the child’s habitual residence are key facts necessary to make
the final determination. See http://travel.state.gov/law/citizenship/citizenship_5199.html for further information.
                                                20
                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

neglected, creating additional work for itself, CA/OCS, and overseas posts and often resulting in
major delays while the pertinent information is gathered on a case-by-case basis.

Recommendation 10: The Bureau of Consular Affairs should update the legitimation table and
share the information with other affected offices, including the Passport Legal division, the Visa
Services Office of Legal Affairs, and the Office of the Assistant Legal Adviser for Consular
Affairs. (Action: CA)

        Attorneys and other professional staff spend significant amounts of time on
administrative matters rather than assigning such responsibilities to an administrative staff
person. Tracking predictable work throughout the year, such as two-parent consent cases,
passport revocation cases, and any other recurring projects, could be managed separately from
the substantive assignments. The administrative staff member could collect and report numbers
of discrete cases (i.e., monthly and annual workloads for two-parent consent questions; passport
revocation cases; litigation; abduction and adoption cases; and general ASKPRI inquiries from
the general public, other attorneys, overseas, and within the Department) to help PRI adopt a
proactive workload management model.

Recommendation 11: The Bureau of Consular Affairs should assign an administrative staff
person to the Office of Policy Review and Interagency Liaison to act as a workload management
administrator to track and monitor predictable work, follow up with the assigned attorneys,
update systems to reflect current case status, and collect and report workload statistics. (Action:
CA)

        PRI indicated some of the delay in its response time arises overseas while attorneys wait
for the information they need to process the incoming question or request. Frequently, posts send
incomplete information and fail to respond when PRI requests additional details that are required
to answer the query. For example, two-parent consent questions may come in without sufficient
child-custody documentation or necessary identity documentation and signatures. PRI has not
countered this trend by developing guidance on the documents needed for routine cases to
minimize unnecessary delays in responding to queries.

       Informal Recommendation 12: The Bureau of Consular Affairs should draft and
       disseminate throughout the Department of State checklists of key information the Office
       of Policy Review and Interagency Liaison needs for recurring cases.

        The new supervisory attorney recently reassessed and reorganized portfolios to balance
workloads. She was concerned that there was inadequate backup coverage for certain portfolios
and wanted to eliminate or at least minimize the potential for delayed response time. Although
these portfolios are still relatively new, it is important that PRI facilitate a smooth transition by
communicating this change to the field and the rest of the Department, and keeping it current, so
that everyone knows the proper point of contact for a given issue.

       Informal Recommendation 13: The Bureau of Consular Affairs should update all
       attorney portfolios online to reflect the current primary and backup attorney assignments
       in the Office of Policy Review and Interagency Liaison.

                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        As mentioned previously, PRI is not tracking its workload. Although staff members
routinely work overtime, PRI does not have a formal overtime policy. Overtime is handled in an
informal manner, which disguises the number of staff hours actually necessary to complete tasks.
Although certain scheduling flexibilities are permissible, relying on staff members to work extra
hours without compensation to get the job done, even on a voluntary basis, is not acceptable.
Masking the number of hours spent at work is not a sustainable solution to a possible staffing
shortage, particularly as this approach impermissibly accepts “volunteer” services for
government work, which is contrary to Federal regulations.

         Informal Recommendation 14: The Bureau of Consular Affairs should revise the Office
         of Policy Review and Interagency Liaison’s overtime policy to bring it into alignment
         with Department of State regulations and guidance.

Parity

        Although the title “Office of Policy Review and Interagency Liaison” may capture some
elements of what PRI does within CA/OCS, it is not an inclusive or transparent moniker for this
office. PRI staff members often find themselves required to explain their mission and function
both within the Department and to outside audiences. In contrast, the “Passport Legal division”
(PPT/L) and the “Visa Services Office of Legal Affairs” (VO/L) are significantly less opaque
designations that are readily grasped by those internal and external to the Department. Similarly,
the “Office of the Assistant Legal Adviser for Consular Affairs” (L/CA) is readily identified as a
legal unit of the Office of the Legal Adviser. Because PRI frequently interacts with other
agencies, representatives from foreign governments, and the public, it is crucial that PRI’s title
clearly communicate its role. Clarity on this point would also facilitate PRI’s ability to work with
other teams of lawyers, who sometimes hesitate to invite PRI to key meetings due to uncertainty
regarding its status as a legal office. Previously, PRI sought a name change but had its request
denied due to perceptions that the nonlegal function performed by the Victim Assistance unit
were atypical for a legal office. However, once PRI makes recommended organizational
changes, such as moving the victim assistance function, its nonlegal work will be significantly
reduced, making this objection to the name change moot.

Recommendation 12: The Bureau of Consular Affairs, in coordination with the Bureau of
Administration, should change the name of the Office of Policy Review and Interagency Liaison
to the Overseas Citizens Services Office of Legal Affairs (OCS/L). (Action: CA, in coordination
with A)

         Attorneys in the Passport Legal division have subscriptions to both Lexis and Westlaw
search engines. The two search engines offer different tools, and these resources are vital to
accomplishing PRI’s mission. PRI staff members have access only to Lexis, which limits their
ability to support CA/OCS with efficient, complete legal opinions. CA has not reviewed PRI’s
research requirements, along with those of other CA legal divisions, to determine whether a
bureauwide subscription to Lexis, Westlaw, or both legal research tools is necessary to the work
of attorneys.




                                          22
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

         Informal Recommendation 15: The Bureau of Consular Affairs should provide legal
         search engine subscriptions that best assist Office of Policy Review and Interagency
         Liaison’s legal staff members to accomplish their mission.

        As previously noted in the 2005 OIG inspection, 4 there is lack of clarity about the process
of assigning grade levels to PRI attorneys. Since the 2005 inspection, CA/OCS requested and
received permission from L/CA and the executive office to designate staff attorney positions up
to a GS-14 level. In addition, PRI now has a middle-management supervising attorney position
graded at a GS-15—the same grade as the PRI office director position. All PRI attorneys manage
complex legal portfolios that involve multilateral treaties, other bilateral agreements, sensitive
child abduction and adoption matters, intricate nationality questions, and myriad crisis-based
legal questions. PRI attorneys also regularly interact with counterparts at The Hague as well as in
other international venues, and they are responsible for interagency coordination on a variety of
OCS issues, such as totalization agreements. PRI attorneys regularly act as backup for several
portfolios in L/CA as well as for L/CA attorneys in general. Additionally, L/CA has requested
that PRI send an attorney to assist L/CA with its workload in a temporary duty capacity to fill
staffing gaps and promote greater exchange between the two offices. Capping PRI attorneys’
promotion potential at the GS-14 level limits PRI’s ability to recruit and retain staff. In light of
expanding responsibilities and the newly assigned portfolios, CA’s Office of the Executive
Director is in a good position to reassess these positions and whether they are graded properly, as
there is no clear justification for the current GS-14 ceiling. On a related matter, PRI’s director
occupies a GS-15 position, but the comparable office director position in the visa office is at the
senior level. CA is planning to renew its efforts to upgrade the PRI office director position,
which the OIG team supports.

Recommendation 13: The Bureau of Consular Affairs, in coordination with the Office of the
Legal Adviser, should update position descriptions for Office of Policy Review and Interagency
Liaison attorney positions and determine whether they merit a position grade higher than GS-14.
(Action: CA, in coordination with L)

Resources

        PRI continues to be plagued by many of the same problems identified in the 2005 OIG
inspection report. Although it has gained some staff positions since 2005, the majority of these
were justified based on citizenship and Privacy Act developments that are separate from the
rapid and overwhelming growth of CI’s staff and workload. For example, the Office of the Legal
Adviser Board of Appellate Review 5 was abolished and its function was taken over by PRI. In
2009, the Western Hemisphere Travel Initiative 6 entered into force, which increased the number
of complex citizenship acquisition cases and concomitant litigation exponentially. Also, the

4
  Bureau of Consular Affairs Office of Policy Review and Interagency Liaison, Report Number ISP-CA-05-62
(September 2005). Available as an archived report at https://oig.s.state.sbu/Pages/ReportArchive.aspx.
5
  Legal Adviser Board of Appellate Review reviewed appeals arising from Certificates of Loss of Nationality that
were issued by the operational office (CA/OCS/ACS).
6
  On April 3, 2008, the Department of Homeland Security and the Department of State promulgated the Western
Hemisphere Travel Initiative joint final rule, effective on June 1, 2009, at U.S. land and sea ports of entry (73 Fed.
Reg. 18384) ,which arose from the Intelligence Reform and Terrorism Prevention Act of 2004 (IRTPA) (Pub. L.
Num. 108-458, 118 Stat. 3638).
                                                23
                                    SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

advent of assisted reproductive technology has engendered steadily growing and increasingly
complex citizenship issues. New laws introducing additional protections and limitations for U.S.
citizens suspected of terrorist ties, including U.S. citizens on the No Fly List, have created
additional PRI work. Furthermore, as CA/OCS took on the challenging role of the U.S. Central
Authority for the Abduction Convention, PRI was not fully apprised of the large influx of new
CI personnel and did not sufficiently comprehend the collateral effect CI’s burgeoning staff
would have on PRI. Unfortunately, as noted earlier, PRI does not track its workload. So,
although it is clear that staff is busy, it is not possible at this point to quantify the full extent of
the burden or how it is shared among the various attorneys. See the Workload Management
section of this report for a recommendation for PRI to track its work and hours in order to
properly assess how many additional staff members are needed to support the office’s expanded
role.

        Although PRI has a SharePoint site, it is not up to date. Also woefully outdated is PRI’s
intern/extern project list. PRI will have a number of law externs (approximately 5 per semester
for a total of 10 over the course of the year) coming on board in 2012 and can assign them to
some of the long-term projects that have stalled due to competing priorities. Legal externs may
be relied upon to conduct extensive research—a time-consuming exercise that permanent staff
members cannot perform in addition to their other duties—that attorneys may then review and
use for formal legal opinions. Also, fact-gathering projects (e.g., the legitimation tables
mentioned earlier) would be extremely useful tasks for office and law students alike. The
absence of a current project list hampers PRI’s ability to maximize the talents of interns and
externs.

        Informal Recommendation 16: The Bureau of Consular Affairs should reevaluate the
        expanding extern program in the Office of Policy Review and Interagency Liaison and
        develop a suitable, updated project bank.

Email Management—ASKPRI

        The OIG team’s field survey results showed that ASKPRI, the email box used for
inquiries regarding citizenship-related matters, is not meeting the needs of consular officers
abroad. Many of the 207 respondents commented that PRI does not respond to emails in a timely
manner or provides irrelevant information. Although shortly before the inspection PRI
implemented a color-coded system to manage the daily deluge of emails more effectively, most
staff members do not understand the system and there are no procedures to manage the flow of
email inquiries.

        The ASKPRI mailbox currently contains more than 8,000 emails, and it is difficult to
distinguish between issues that PRI has addressed and those that are pending, with some dating
as far back as February 2011. The OIG team randomly culled emails and found several instances
where overseas posts had to send multiple followup emails to obtain an initial response from
PRI. In addition to containing emails from consular officers abroad, the mailbox is also cluttered
with requests from the public, such as lawyers and private citizens, which contributes to the
bottleneck. Without standard operating procedures for handling or responding to these emails,
there is no established response time. Furthermore, the mailbox lacks an automatic reply that

                                           24
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

provides a time frame for the followup response based on the type of inquiry, nor does it include
a link to answers to frequently asked questions.

Recommendation 14: The Bureau of Consular Affairs should create and maintain two
mailboxes for email inquiries sent to the Office of Policy Review and Interagency Liaison, one
for internal Department of State and overseas mission communications and another for public
inquiries, and include an appropriate automatic reply for each. (Action: CA)

Recommendation 15: The Bureau of Consular Affairs should implement and publicize
performance standards for handling email inquiries sent to Office of Policy Review and
Interagency Liaison mailboxes and assign administrative staff to disseminate, monitor, track, and
file incoming email inquiries. (Action: CA)

Crime Victim Assistance Program

        The overall goal of the crime victim assistance program is to help U.S. citizens of crime
abroad and their families receive needed and available services while still overseas and to enable
them to continue receiving those services upon return to the United States. Though the purpose
of the crime victim assistance program is commendable, the actual implementation and
management of the program needs an overhaul. The program’s staff consists of three victim
assistance specialists and one contractor management analyst. The staff focuses mainly on
assistance to victims of serious crimes such as homicide, sexual assault, kidnapping, and acts of
terrorism.

         Victim assistance specialists provide training to consular officers and staff and are also
responsible for providing casework assistance to OCS/ACS and CI country officers who handle
individual cases. Additionally, program team members gather information from other Federal
agencies and victims services agencies to ensure that accurate data are available to consular
officers to help victims and their families cope with the impact of violent crimes. Though the
staff is eager to provide these sensitive and much-needed services, delivery is inefficient due to
lack of management and guidance. See the Outreach and Training section of this report for the
OIG team’s recommendation to move these functions elsewhere in OCS to achieve better
oversight.

        In July 2009, the U.S. Department of Justice Office for Victims of Crime and CA entered
into an agreement for the Office for Victims of Crime to provide $450,000 for a 5-year period to
financially support training and technical assistance for victim assistance services to American
citizens abroad. The reimbursable agreement enables CA to fund travel, lodging, per diem, and
related costs associated with training staff who come into direct contact with American victims
of crime abroad. The funds may also be used to secure speakers or consultants for training
conferences and to develop and distribute training and outreach material. The OIG team found
that CA has not followed through with any of the stipulations within the agreement since its
inception in 2009, including obtaining Department of Justice Office for Victims of Crime
clearance for new outreach and training materials and adhering to a reporting schedule. Failure to
meet the requirements of the agreement jeopardizes the funding for and future of these important
services. The lack of financial reporting and oversight is addressed in the Resource Management
section of this report.
                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 16: The Bureau of Consular Affairs should provide the deliverables outlined
in the U.S. Department of Justice Office for Victims of Crime Interagency Agreement. (Action:
CA)

       Currently, crime victim assistance program staff spends most of its time training consular
employees at the Foreign Service Institute and regional conferences abroad. Staff members also
provide training for and guidance to OCS case officers to enable them to recommend services
and resources to Americans. At this time, it appears that the staff is moving away from individual
casework because of its small size and limited resources. The 2005 OIG inspection team
recommended that CA transfer management of the victim assistance function from PRI to
OCS/ACS because the group’s function was not well aligned with PRI’s primary mission and the
victim assistance specialists provided case support to OCS/ACS desk officers. CA instead
envisioned broadening the victim assistance specialist portfolios to include providing assistance
to CI with regard to child custody and abduction issues as well. Thus OIG closed the
recommendation.

        Upon further review of the small unit’s operations, the current OIG team again concludes
that the group’s mission still does not fit within the PRI structure. Current staff members operate
individually versus working together as a team because of inadequate supervision and guidance.
This lack of coordination has caused staff to take on projects that have nothing to do with the
program’s stated purpose. Furthermore, few within CA/OCS know the purpose of program.

        Although the victim assistance specialists do provide occasional support in individual
cases, they focus primarily on outreach and training. All program staff members are involved in
the development and delivery of the 3-day Foreign Service Institute training course, PC-124
Assisting Victims of Crime, and are currently spending their time preparing for an updated
version of the class. They are also planning an initiative to reach out to future study abroad
university students to help prepare them for the realities of overseas travel and how to stay safe.
As most of their work consists of outreach and training and there is overlap between their work
and that of other outreach and training elements within CA/OCS, the crime victim assistance
outreach and training function and at least two members of the staff would be more appropriately
absorbed into the newly unified Outreach and Training unit under the CA/OCS managing
director’s purview. The remaining victim assistance specialist would then move to CA/ACS to
continue to provide the occasional individual case support, act as a resource during any crisis or
criminal situation, and maintain contact with external contacts such as nongovernmental
organizations and related Federal organizations.

Recommendation 17: The Bureau of Consular Affairs should move the existing crime victim
assistance group out of the Office of Policy Review and Interagency Liaison, with the training
elements moving to the newly unified Outreach and Training unit and the policy/case function
moving to the Crisis Management division. (Action: CA)




                                          26
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Resource Management
                    Directorate of Overseas Citizens Services Staffing
   U.S.        Foreign       Civil       Contract       Students
                                                                   3161s   WAE   Detailees   Total
  Staff –      Service      Service       Staff         /Interns
 Domestic         31           98           30            12        6       1       1         179

               Foreign       Civil
   U.S.                                                                                      Total
               Service      Service
  Staff –                   Excursions
 Overseas
                   0           12                                                             12

     Resources Controlled by the Directorate of Overseas Citizens Services
                                (in thousands)
                              Funding Description                                        Amount
 Border Security Program (Machine-Readable Visas) – Overseas Citizens Services             $4,000
 Border Security Program (Machine-Readable Visas) – Public Affairs                           $450
 Diplomatic Support and Policy – Emergency Medical/Dietary Assistance Loans*                 $175
 Diplomatic Support and Policy – Protecting Powers*                                        $3,734
 Repatriation Loans*                                                                       $1,839
 Victim Assistance Interagency Funds**                                                       $450
                                                                        Total:            $10,648
 * OCS/ACS
 **Five-year agreement with the Department of Justice



        The majority of resource management functions are the responsibility of CA’s Office of
the Executive Director and Office of the Comptroller. For matters that require more direct
oversight and control, CA/OCS consolidated a number of responsibilities into P, including
strategic planning, liaison with CA’s Office of Consular Systems and Technology, contract
management, logistics arrangements, and travel oversight.

        Employee satisfaction with the services P provides is generally low, procedural guidance
is frequently absent or unclear, and the office is not very responsive to inquiries about the status
of service requests. There are no criteria for responding to inquiries. The OIG team found that
some requests were submitted to the unit’s email inbox multiple times either because of lack of a
followup response to notify the client of the request status or because the request had been
dropped altogether without resolution. The division maintains a tracking list on the CA/OCS
SharePoint site, but comparison of the list to the requests inbox revealed that not all requests are
being entered onto the tracking list, and many of those that are do not have any record of
completion or update even after several months. For requests that are marked as completed or
otherwise closed, the list does not track the date of completion for monitoring the time to


                                             27
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

resolution. The division also does not ask requestors to acknowledge satisfactory completion of
tasks.

Recommendation 18: The Bureau of Consular Affairs should establish service standards for the
Directorate of Overseas Citizens Services to respond to and complete requested tasks sent to the
Planning, Programs, and Systems Liaison division and distribute these standards among the
relevant offices. (Action: CA)

       P’s two systems liaisons are on track with several new developments, including an
updated version of the International Parental Child Abduction database to address CI’s concerns
about reliability, telework access, and document storage; the Smart Traveler Enrollment Program
– mobile, a program for U.S. citizens to enroll using mobile devices; and the Enterprise Case
Assessment System for OCS/ACS to track cases of fraud. The liaisons are also coordinating with
CA’s Office of Consular Systems and Technology on engaging with overseas posts, gathering
requirements for the development of the new ConsularOne system, although it will likely be a
couple of years before the CA/OCS modules are developed.

        Because of the growth in CA/OCS over the past few years, employees are seriously
overcrowded in State Annex 29. Fortunately, they are on track to move into the new annex
leased for all of CA in early 2013. The new building has enough space to eliminate the need for
putting three or four people into a single office space and for sharing desks among teleworkers.
CA/OCS is also taking advantage of the move preparations to reduce paper files and minimize
the space needed for storage.

       Once moved into the new building and colocated with CA’s Office of the Executive
Director and Office of the Comptroller, P may be able to relinquish some of its current
responsibilities. For example, service requests related to building maintenance could be
submitted directly to the Office of the Executive Director General Services division, requests for
computer equipment services could be submitted directly to the Office of Consular Systems and
Technology, and some of the direct financial oversight responsibilities could be assumed by the
Office of the Comptroller.

       Informal Recommendation 17: The Bureau of Consular Affairs should identify the tasks
       and responsibilities currently under the purview of the Directorate of Overseas Citizens
       Services that can be transferred to the executive office or comptroller once the entire
       bureau relocates to the new annex building.

Financial Management

       P has nominal responsibility for financial management issues, but the actual control of
funding is operationally scattered throughout CA/OCS. PRI manages interagency funds from the
Department of Justice for the crime victim assistance program; OCS/ACS manages the
emergency medical and dietary assistance loans and repatriation loans and, in coordination with
CA’s Office of the Comptroller, funds transferred to protecting powers that manage affairs for
American citizens in regions where the United States does not maintain a presence; and P
manages the travel funds, procurement, contracting, and interagency agreements concerning

                                         28
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

sharing automated data. P is also responsible for coordinating and drafting budgeting and
strategic planning activities and documents for the office.

         The OIG team identified significant problems with the management of the interagency
funds under PRI’s control. Of greatest concern is that PRI has never submitted the quarterly
fiscal reports for victim assistance required under the funding agreement with the Department of
Justice, and the OIG team was unable to find one person in CA responsible for tracking or
maintaining the $450,000 fund. Although PRI prepared several progress reports indicating that
the crime victim assistance program has used almost $40,000 of the fund so far, Department of
Justice budget office records do not show that CA reported spending any of the funds for the
agreement, which is scheduled to expire in July 2013.

        The dispersed responsibility for funds and the multiple interlocutors with CA’s Office of
the Comptroller make it difficult for CA/OCS to maintain adequate financial controls. Although
P is the primary liaison between CA/OCS and the Office of the Comptroller, individuals in
OCS/ACS and PRI frequently contact the Office of the Comptroller directly to discuss their
financial responsibilities without including a representative from P. Failure to expend and track
current funding properly could jeopardize renewal of the interagency agreement.

Recommendation 19: The Bureau of Consular Affairs should implement a plan to consolidate
operational responsibility for Directorate of Overseas Citizens Services financial controls in the
Planning, Programs, and Systems Liaison division. (Action: CA)

Contract Management

        The largest expense category CA/OCS manages is contractual services, approximately
$2.5 million in FY 2011. P coordinates with CA’s Office of the Executive Director General
Services division to provide oversight for these services, including language interpretation by
LanguageLine, 30 contract personnel provided by Symtech Corporation, and the National Call
Center.

        The National Call Center manages incoming calls from the public to provide basic
information about services for U.S. citizens and, if necessary, transfers calls to appropriate
offices within CA/OCS. Last year, CA/OCS also entered into a formal agreement with the
National Passport Information Center to manage the increased call traffic during crises.
Compared with the National Call Center, the National Passport Information Center is able to
provide better services in crises for two reasons. First, it can better handle the spike in call
numbers during an emergency. Second, it has access to the Consolidated Consular Database and
can enter information directly on American citizens in the crisis areas, relieving the task force of
most of this work. Unfortunately, this results in the need to manage two different call center
relationships, which may not be the most efficient arrangement for CA/OCS.

       Informal Recommendation 18: The Bureau of Consular Affairs should evaluate the
       benefit of using the National Passport Information Center for all call center services and,
       if feasible, terminate the agreement with the National Call Center.


                                          29
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        CA/OCS contracts for 30 positions throughout P. The majority of positions are for
clerical and administrative support, for which the contractor provides satisfactory service.
However, the statement of work does not adequately address the 10 case assistant positions in the
Abduction divisions of CI. These contractors are hired as “administrative” personnel, with
generic descriptions of their job duties that do not reflect the work they perform. For example,
case assistants are responsible for backing up absent country officers, drafting case summaries,
maintaining communication with foreign government authorities and law enforcement officials,
and interpreting or conducting conversations in foreign languages. Some of this work is closely
associated with inherently governmental functions, and there is the risk that foreign authorities
could mistake contractors for U.S. Government representatives.

        The office director also noted the need for more flexibility in the types of assignments
case assistants can have, with the ultimate goal of using these positions as the entry level for the
office, with a career ladder to the country officer positions. The ability to give case assistants
more direct control over cases would free up the country officers to focus on bilateral issues and
sensitive cases. In addition, using full-time equivalent positions, rather than contractors, for case
assistants will provide significant cost savings. CI’s 10 contractor positions cost approximately
$637,000 per year. The office director stated that with the benefits of stability and reliable skills
and qualifications of full-time equivalent employees, CI can reduce the number of case assistants
to only 8 positions with a GS-5 to GS-7 ladder. The potential savings would be between $20,000
and $220,000 in the first year, depending on the actual grade and step of the full-time employees,
with potential savings in out years between $110,000 and $300,000.

Recommendation 20: The Bureau of Consular Affairs should establish new full-time equivalent
case assistant positions within the Office of Children’s Issues to replace the case assistant
contract positions. (Action: CA)

        In the meantime, the statement of work for the current contract positions is insufficient
for CI’s needs. As described above, the case assistants are working on duties outside the scope of
the contract. Supervisors have also reported that, due to the inaccurate statement of work, recent
hires for contract positions do not have the necessary skills and background to perform
successfully.

Recommendation 21: The Bureau of Consular Affairs, in coordination with the Bureau of
Administration, should amend the task order statement of work so that case assistant position
duties reflect the actual needs of the Office of Children’s Issues. (Action: CA, in coordination
with A)

         The current arrangement also provides inadequate supervision for the case assistant job
duties that are closely associated with inherently governmental functions. The contracting
officer’s representative is in P and does not understand the duties or regularly monitor the
activities of the case assistants. Instead, case assistants rely on managers in CI, who do not have
the required training to oversee contractors, to report problems to the representative.

Recommendation 22: The Bureau of Consular Affairs should designate and provide training for
an employee in the Office of Children’s Issues to be a government technical monitor to partner
with the existing contracting officer’s representative. (Action: CA)
                                          30
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        Another area that is not adequately addressed in the statement of work is the potential
need for contractors to work on task forces. There is a clause that states this process will be
worked out as an agreement with the contracting officer’s representative; however, nothing is
currently in place, leaving the possibility of confusion just as a crisis is occupying the office’s
attention.

       Informal Recommendation 19: The Bureau of Consular Affairs should establish an
       agreement with Symtech Corporation that describes the expectations and procedures for
       Directorate of Overseas Citizens Services contractors working on a task force.

Human Resources

       A number of human resources-related issues, including position grades and training, are
discussed in earlier sections of the report.

        Across CA/OCS, offices are making good use of teleworking. In CI, a few employees
telework full time and set a high standard for performance. However, oversight of situational
telework is inconsistent across various offices, divisions, and branches. Most employees have
informal agreements with their supervisors about telework procedures. Telework and alternate
work schedule arrangements require formal agreements that lay out the expectations for
performance and how the supervisor is going to exercise oversight (3 FAM 2362.1 d., e., h. and 3
FAM 2332.4). The absence of formal agreements results in confusion among CA/OCS
employees about telework requirements and prevents managers from validating allegations of
employee abuse of telework privileges. Similar issues linger concerning the consistency of
approval and supervision of alternate work schedules. The Department provides guidance and
training for managers to develop these procedures.

Recommendation 23: The Bureau of Consular Affairs should implement a policy for the
Directorate of Overseas Citizens Services on the standards for telework and alternate work
schedule approval, oversight, and enforcement of requirements. (Action: CA)

        CA/OCS offices and divisions executed the awards program unevenly in 2011. There is
no internal awards committee to review nominations before they go to the managing director for
approval,(b) (5)

       Informal Recommendation 20: The Bureau of Consular Affairs should establish an
       internal awards committee in the Directorate of Overseas Citizens Services that includes
       representation from all offices and divisions to review awards nominations before they go
       to the managing director for approval.

        CA/OCS has several Foreign Service officer vacancies that are hard to fill. The OIG team
did not see that CA/OCS was making any extra effort to advertise and recruit Foreign Service
officers for these positions beyond including them on the usual bid lists. In counseling on this
issue, the team suggested that CA/OCS contact the Bureau of Human Resources career
development officers to make the availability of these positions better known among their
Foreign Service clients.

                                           31
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        CA/OCS has an active Equal Employment Opportunity program, with three counselors
identified within the offices. There were no allegations or problems brought to the attention of
the team.




                                          32
                              SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                      33
          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                      34
          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                      35
          SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                      36
          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations

Recommendation 1: The Bureau of Consular Affairs should combine the various functions in
the Directorate of Overseas Citizens Services that are dedicated to outreach and training into a
single unit under the direct supervision of the managing director. (Action: CA)

Recommendation 2: The Bureau of Consular Affairs, in coordination with the Foreign Service
Institute, should provide consular training to all newly hired permanent employees in the
Directorate of Overseas Citizens Services within 6 months of their employment. (Action: CA, in
coordination with FSI)

Recommendation 3: The Bureau of Consular Affairs should implement a policy requiring that
all branch and division chiefs in the Directorate of Overseas Citizens Services successfully
complete appropriate level leadership training at the Foreign Service Institute within 6 months of
their promotions. (Action: CA)

Recommendation 4: The Bureau of Consular Affairs should rename the Office of Children’s
Issues, choosing a name that better reflects the specific nature and parameters of the office’s
work. (Action: CA)

Recommendation 5: The Bureau of Consular Affairs should revise all Civil Service position
descriptions in the Office of Children’s Issues to reflect the current work requirements. (Action:
CA)

Recommendation 6: The Bureau of Consular Affairs should convert the Adoption division
chief position (number D0360401) from Foreign Service to Civil Service and convert the current
Civil Service branch chief position (number D0360800) to Foreign Service. (Action: CA)

Recommendation 7: The Bureau of Consular Affairs should establish a committee with
members from the Office of Policy Review and Interagency Liaison, the Passport Legal division,
and the Visa Services Office of Legal Affairs to coordinate their work on a regular basis.
(Action: CA)

Recommendation 8: The Bureau of Consular Affairs should implement standard operating
procedures and timelines for making staff work assignments in the Office of Policy Review and
Interagency Liaison, incorporating these standards and expectations into each employee’s annual
work requirements. (Action: CA)

Recommendation 9: The Bureau of Consular Affairs should implement a policy requiring the
Office of Policy Review and Interagency Liaison staff members to meet the 90-day passport
revocation deadline established by joint memorandum with the Passport Legal division. (Action:
CA)

Recommendation 10: The Bureau of Consular Affairs should update the legitimation table and
share the information with other affected offices, including the Passport Legal division, the Visa
Services Office of Legal Affairs, and the Office of the Assistant Legal Adviser for Consular
Affairs. (Action: CA)
                                                37
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 11: The Bureau of Consular Affairs should assign an administrative staff
person to the Office of Policy Review and Interagency Liaison to act as a workload management
administrator to track and monitor predictable work, follow up with the assigned attorneys,
update systems to reflect current case status, and collect and report workload statistics. (Action:
CA)

Recommendation 12: The Bureau of Consular Affairs, in coordination with the Bureau of
Administration, should change the name of the Office of Policy Review and Interagency Liaison
to the Overseas Citizens Services Office of Legal Affairs (OCS/L). (Action: CA, in coordination
with A)

Recommendation 13: The Bureau of Consular Affairs, in coordination with the Office of the
Legal Adviser, should update position descriptions for Office of Policy Review and Interagency
Liaison attorney positions and determine whether they merit a position grade higher than GS-14.
(Action: CA, in coordination with L)

Recommendation 14: The Bureau of Consular Affairs should create and maintain two
mailboxes for email inquiries sent to the Office of Policy Review and Interagency Liaison, one
for internal Department of State and overseas mission communications and another for public
inquiries, and include an appropriate automatic reply for each. (Action: CA)

Recommendation 15: The Bureau of Consular Affairs should implement and publicize
performance standards for handling email inquiries sent to Office of Policy Review and
Interagency Liaison mailboxes and assign administrative staff to disseminate, monitor, track, and
file incoming email inquiries. (Action: CA)

Recommendation 16: The Bureau of Consular Affairs should provide the deliverables
outlined in the U.S. Department of Justice Office for Victims of Crime Interagency Agreement.
(Action: CA)

Recommendation 17: The Bureau of Consular Affairs should move the existing crime victim
assistance group out of the Office of Policy Review and Interagency Liaison, with the training
elements moving to the newly unified Outreach and Training unit and the policy/case function
moving to the Crisis Management division. (Action: CA)

Recommendation 18: The Bureau of Consular Affairs should establish service standards for
the Directorate of Overseas Citizens Services to respond to and complete requested tasks sent to
the Planning, Programs, and Systems Liaison division and distribute these standards among the
relevant offices. (Action: CA)

Recommendation 19: The Bureau of Consular Affairs should implement a plan to consolidate
operational responsibility for Directorate of Overseas Citizens Services financial controls in the
Planning, Programs, and Systems Liaison division. (Action: CA)

Recommendation 20: The Bureau of Consular Affairs should establish new full-time
equivalent case assistant positions within the Office of Children’s Issues to replace the case
assistant contract positions. (Action: CA)


                                          38
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 21: The Bureau of Consular Affairs, in coordination with the Bureau of
Administration, should amend the task order statement of work so that case assistant position
duties reflect the actual needs of the Office of Children’s Issues. (Action: CA, in coordination
with A)

Recommendation 22: The Bureau of Consular Affairs should designate and provide training
for an employee in the Office of Children’s Issues to be a government technical monitor to
partner with the existing contracting officer’s representative. (Action: CA)

Recommendation 23: The Bureau of Consular Affairs should implement a policy for the
Directorate of Overseas Citizens Services on the standards for telework and alternate work
schedule approval, oversight, and enforcement of requirements. (Action: CA)

Recommendation 24: (b) (5)




Recommendation 25: (b) (5)




Recommendation 26: The Bureau of Consular Affairs, in coordination with the Bureau of
Diplomatic Security, should consolidate classified material and classified processing equipment
in an enclosed office in the Directorate of Overseas Citizens Services suite and secure the area in
accordance with Department of State regulations. (Action: CA, in coordination with DS)




                                          39
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of Consular Affairs should implement a plan to
monitor progress toward meeting the management goals of the Office of Policy Review and
Interagency Liaison; the Policy, Programs, and Systems Liaison division; and the new Outreach
and Training unit.

Informal Recommendation 2: The Bureau of Consular Affairs should modify its public Web
site to distinguish better among the child-related issues that are the responsibility of the Office of
Children’s Issues, the Office of American Citizens Services, and other Department of State
bureaus.

Informal Recommendation 3: The Bureau of Consular Affairs should complete its program of
standardizing internal operating procedures in the Office of Children’s Issues and include a
process for keeping the information up to date.

Informal Recommendation 4: The Bureau of Consular Affairs should assign one officer to
serve as the special advisor’s special assistant in the Office of Children’s Issues.

Informal Recommendation 5: The Bureau of Consular Affairs should implement a policy
requiring all managers in the Office of Children’s Issues to counsel all employees, review their
performance, and recommend any necessary training.

Informal Recommendation 6: The Bureau of Consular Affairs should reorganize the Adoption
division in the Office of Children’s Issues so that officer portfolios include both Hague and non-
Hague countries.

Informal Recommendation 7: The Bureau of Consular Affairs should select or recruit a fully
qualified replacement for the accrediting agencies liaison portfolio in the Directorate of Overseas
Citizens Services.

Informal Recommendation 8: The Bureau of Consular Affairs should complete the review of
existing cases in the Office of Children’s Issues so that all future cases meet the current
definition for acceptance before officers open them.

Informal Recommendation 9: The Bureau of Consular Affairs should implement a policy
requiring the Office of Policy Review and Interagency Liaison to hold mandatory weekly
attorney staff meetings to discuss case status and novel legal issues and to update backup
attorneys as necessary about ongoing cases.

Informal Recommendation 10: The Bureau of Consular Affairs should implement a policy
that requires the Office of Policy Review and Interagency Liaison to use its newly established
                                                40
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

SharePoint calendar to record and coordinate scheduled leave, sick leave, alternative work
schedules, upcoming travel, and training so that portfolios are routinely covered.

Informal Recommendation 11: The Bureau of Consular Affairs should document the Office of
Policy Review and Interagency Liaison’s formal role in the clearance chain, including the
procedure for obtaining clearances, and disseminate this information throughout the Directorate
of Overseas Citizens Services.

Informal Recommendation 12: The Bureau of Consular Affairs should draft and disseminate
throughout the Department of State checklists of key information the Office of Policy Review
and Interagency Liaison needs for recurring cases.

Informal Recommendation 13: The Bureau of Consular Affairs should update all attorney
portfolios online to reflect the current primary and backup attorney assignments in the Office of
Policy Review and Interagency Liaison.

Informal Recommendation 14: The Bureau of Consular Affairs should revise the Office of
Policy Review and Interagency Liaison’s overtime policy to bring it into alignment with
Department of State regulations and guidance.

Informal Recommendation 15: The Bureau of Consular Affairs should provide legal search
engine subscriptions that best assist Office of Policy Review and Interagency Liaison’s legal
staff members to accomplish their mission.

Informal Recommendation 16: The Bureau of Consular Affairs should reevaluate the
expanding extern program in the Office of Policy Review and Interagency Liaison and develop a
suitable, updated project bank.

Informal Recommendation 17: The Bureau of Consular Affairs should identify the tasks and
responsibilities currently under the purview of the Directorate of Overseas Citizens Services that
can be transferred to the executive office or comptroller once the entire bureau relocates to the
new annex building.

Informal Recommendation 18: The Bureau of Consular Affairs should evaluate the benefit of
using the National Passport Information Center for all call center services and, if feasible,
terminate the agreement with the National Call Center.

Informal Recommendation 19: The Bureau of Consular Affairs should establish an agreement
with Symtech Corporation that describes the expectations and procedures for Directorate of
Overseas Citizens Services contractors working on a task force.

Informal Recommendation 20: The Bureau of Consular Affairs should establish an internal
awards committee in the Directorate of Overseas Citizens Services that includes representation
from all offices and divisions to review awards nominations before they go to the managing
director for approval.




                                         41
                             SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 21: (b) (5)



Informal Recommendation 22: (b) (5)



Informal Recommendation 23: (b) (5)




Informal Recommendation 24: (b) (5)



Informal Recommendation 25: (b) (5)




                                     42
                         SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                    Name      Arrival Date
Assistant Secretary                                       Janice L. Jacobs           06/08
Special Advisor to The Secretary                          Susan S. Jacobs            07/10
Principal Deputy Assistant Secretary                     Michael D. Kirby            06/08
Deputy Assistant Secretary                                  James D. Pettit          11/10
Managing Director, OCS                               Michelle Bernier-Toth           02/11

Office Directors:
   Policy, Review, and Interagency Liaison           Edward A. Betancourt           01/97
   Children’s Issues                                       Beth A. Payne            07/11
Division Chiefs:
   Adoption                                             Alison E. Dilworth          08/10
   Abduction, Eastern Hemisphere Outgoing                  Stefanie B. Eye          08/10
   Abduction, Western Hemisphere Outgoing                   Laurie J. Trost         04/10
   Incoming, Prevention, Outreach, and Training          Marco P. Tedesco           08/10
Planning, Programs, and Systems Liaison Unit Chief       James L. Schuler           05/04




                                        43
                            SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


Abbreviations
Abduction Convention   Hague Convention on the Civil Aspects of International Child
                       Abduction
Adoption Convention    Hague Convention on Protection of Children and Co-operation in
                       Respect of Intercountry Adoption
CA                     Bureau of Consular Affairs
CA/OCS                 Bureau of Consular Affairs Directorate of Overseas Citizens
                       Services
CI                     Office of Children’s Issues
DAS                    Deputy assistant secretary
Department             U.S. Department of State
DS                     Bureau of Diplomatic Security
FAM                    Foreign Affairs Manual
L/CA                   Office of the Assistant Legal Adviser for Consular Affairs
NCMEC                  National Center for Missing and Exploited Children
OCS/ACS                Office of American Citizens Services and Crisis Management
P                      Planning, Programs, and Systems Liaison division
PRI                    Office of Policy Review and Interagency Liaison




                                   44
                       SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
